                 Office of Audits
                 Office of Inspector General
                 U.S. General Services Administration

    DATE:              March 25, 2014
    TO:                Thomas A. Sharpe, Jr.
                       Commissioner, Federal Acquisition Service (Q)
                       Signed by
    FROM:              Theodore R. Stehney
                       Assistant Inspector General for Auditing (JA)
    SUBJECT:           Major Issues from Multiple Award Schedule Audits
                       Audit Memorandum Number A120050-4


Since fiscal year (FY) 2010, my office has issued two memoranda of recurring issues
within the Schedules Program as identified by our preaward audits of Multiple Award
Schedule (MAS) contracts. 1 This memorandum details three issues identified during
our FY 2012 preaward audits that require management attention.

      •     Nearly half of the contractors audited had inadequate sales monitoring and billing
            systems to ensure proper administration of the price reduction and billing
            provisions of their MAS contracts.
      •     Contractors continue to provide commercial sales practices disclosures that are
            not current, accurate, and/or complete to support their proposed prices.
      •     FAS contracting officers overwhelmingly agreed with the recommended cost
            avoidances identified in our preaward audits, but only achieved savings for 43
            percent of the amount when the pending option periods were awarded.

Results

In FY 2012, GSA Schedule sales exceeded $38 billion. In this same year, we
performed 39 MAS preaward contract audits with $10.8 billion in estimated sales for
their pending 5-year option periods. We recommended price and discount adjustments
that, if realized, would allow for over $566 million in cost avoidances. Additionally, we
recommended approximately $3 million in recoverable overcharges.




1
    Audit memoranda dated September 26, 2011, and March 8, 2013.



                                              1
Observations from FY 2012 Audits

Contractors have inadequate sales monitoring and billing systems to ensure the
proper administration of the price reduction and billing provisions of their
contracts. Nearly half of the contractors audited in FY 2012 did not have adequate
sales monitoring and billing systems. Further, two thirds of the audits identified specific
sales and billing deficiencies which often resulted in recommended monetary
recoveries.

        Contractors’ sales monitoring and billing systems are inadequate. During our
preaward audits, we evaluate the adequacy of the contractor’s sales monitoring and
billing systems. Specifically, we determine whether the contractor: has sufficient
controls in place to ensure recognition of GSA orders; appropriately bills GSA Schedule
prices; complies with the billing provisions of the GSA contract; and properly
administers the Price Reductions clause. Of the 39 audits performed in FY 2012, 19
(49 percent) identified contractors with inadequate sales monitoring and billing systems.

      Contractors are not billing in compliance with the terms and conditions of their
contracts resulting in recommended recoveries. Twenty-seven (69 percent) of our
preaward audits identified 51 specific sales and billing findings, resulting in
approximately $2.6 million of recommended monetary recoveries. See Table 1 for the
occurrences of each finding type.

    Table 1 – Sales and Billings Findings from FY 2012 Preaward Audits
Table 1 – Sales and Billings Findings from FY 2012 Preaward Audits

                                        Number of Instances     Recommended
                   Finding                    Identified       Recovery Amount
    Overbillings                                 21                     $581,541
    Ineffective Price Reductions Clause          14                            $0
    Unreported Price Reductions                   6                    $1,914,994
    Other                                         5                            $0
    Freight Charges                               2                       $43,177
    Sales Tax                                     2                        $2,031
    Prompt Payment not Granted                    1                       $21,516
    Total                                        51                    $2,563,258

Six audits identified unreported price reductions, accounting for 75 percent of the
recommended monetary recoveries.        In addition, 14 audits reported the Price
Reductions clause as ineffective. Examples in which the clause was determined to be
ineffective include when the company has no sales to the basis of award customer or a
basis of award customer was not identified. 2 In these instances, any potential cost
savings afforded by the clause would never be realized. Auditors provided contracting

2
  Under the Price Reductions clause (GSAM 522.238-75), the contractor's discount relationship with the
basis of award customer or category of customers is generally used as the basis for the discounts given
to the Government. If the discounts given to these customers increase, the discounts given to the
Government also increase.


                                                                     2
officers information to increase the effectiveness of the price protections afforded by the
clause for these 14 contracts. FAS’s MAS Desk Reference identifies long term price
reductions as a key benefit of the Schedules Program; however, with an ineffective
Price Reductions clause, this benefit may never be attained.

FAS should increase efforts to ensure contractors have adequate sales monitoring and
billing systems to properly administer the price reduction and billing provisions of their
MAS contracts.

Commercial Sales Practices disclosures are not current, accurate and/or
complete. In FY 2012, an overwhelming majority of audited contractors submitted
flawed commercial sales practices (CSP) disclosures to FAS’s contracting officers. The
reliance on flawed CSPs in awarding contracts greatly reduces the contracting officer’s
ability to obtain fair and reasonable pricing.

Of 39 FY 2012 preaward audits, we evaluated proposed prices for 25 contractors using
the submitted CSP disclosures. CSPs contained non-current, inaccurate, and/or
incomplete information in 21 of those audits (84 percent). Using current, accurate, and
complete CSP information, we calculated potential cost savings of $188.5 million if
negotiated by FAS contracting officers.

In one instance, the contractor did not submit proposed pricing for installation services
on its CSP because the service is performed by dealers. However, the contractor
provided free installation services for two of the three national account agreements we
reviewed.    If the contracting officer negotiates the same free installation, the
Government could realize up to $21.4 million in cost savings.

Chart 1 outlines the prevalence of CSP issues, as identified by our preaward audits,
over the past three fiscal years. In FY 2012, the occurrence of deficient CSPs
increased by 15 percent. FAS needs to increase its attention to these continued CSP
deficiencies as this information is essential to achieving the best value for customer
agencies, and ultimately, the American taxpayer.

  Chart 1 - Prevalence of CSP Issues
Chart 1 – Prevalence of CSP Issues. 83 percent of FY 2010 audits found CSP issue(s). 69 percent of FY 2011 audits found CSP issue(s). 84 percent
of FY 2012 audits found CSP issue(s).

  90%
  85%
  80%
  75%
  70%                                                                                                                         CSP Issue(s)
  65%
  60%
  55%
                       FY 2010                             FY 2011                             FY 2012




                                                                 3
Contracting officers only achieved 43 percent of cost avoidances identified by
preaward audits. Although FAS contracting officers overwhelmingly agreed with the
recommended cost avoidances identified in our preaward audits, they only achieved
savings for 43 percent of the amount when the pending option periods were awarded. 3
This is only a slight improvement from the 36 percent that FAS contracting officers
achieved from the recommended savings identified in our FY 2011 preaward audits.

In one instance, we noted that FAS used a flawed negotiation technique to award the
contract option. This resulted in achieving zero percent of the agreed to recommended
cost savings. We brought this to the attention of FAS management. As a result, FAS
reopened negotiations achieving $49.6 million in additional savings, representing 100
percent of the auditor recommended cost savings for this audit. This additional amount
raised the overall savings achieved from 43 to 65 percent. The recommended, agreed
to, and achieved cost avoidance amounts are depicted in Chart 2.
Chart 2 - Status of Preaward Audit Cost Avoidances. Of FY 2012 preaward audits, recommended and agreed to cost avoidances were approximately $221 million. The
                              Chart 2 – Status of Preaward Audit Cost Avoidances
initial cost avoidances achieved were approximately $95 million. The final cost avoidances achieved were approximately $145 million.


                   $250

                   $200
                                                                                                                                            Recommended
     In Millions




                   $150
                                                                                                                                            Agreed To
                   $100                                                                                                                     Initial Achieved
                   $50                                                                                                                      Final Achieved

                    $0
                                                                      FY 2012


While the FY 2012 results showed marginal improvement, additional efforts are needed
to maximize cost savings.

Conclusion

The Schedules Program, with over $38 billion in sales in FY 2012, is the largest
interagency contracting vehicle in the Federal Government. The three issues reported
in this memorandum require management attention. FAS should focus on ensuring
contractors properly administer the price reduction and billing provisions of their
contracts, the continued prevalence of CSP issues, and achieving a greater portion of
recommended cost savings. Improvements in these areas will strengthen the integrity
and cost effectiveness of the Schedules Program.




3
    As of October 21, 2013, 21 of the 39 contract options audited in FY 2012 have been awarded.


                                                                           4
If you have any questions regarding this audit memorandum, please contact me or any
member of the audit team at the following:

James Hayes                          jamesp.hayes@gsaig.gov       (202) 273-7321
Deputy Assistant Inspector General
for Acquisition Programs Audits

Barbara Bouldin                      barbara.bouldin@gsaig.gov    (202) 273-7371
Program Director
Acquisition Programs Audit Office




                                     5
Memorandum Distribution
Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Controller, Federal Acquisition Service Financial Services (BF)

Assistant Commissioner, Office of Acquisition Management (QV)

Division Director, GAO/IG Audit Response Division (H1C)

Deputy Assistant Inspector General for Investigations (JID)

Deputy Assistant Inspector General for Acquisition Programs Audits (JA)

Program Director, Acquisition Programs Audit Office (JA-A)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                          6
